<html>
<title> - H.R. 476, THE HOUSING FAIRNESS ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                         H.R. 476, THE HOUSING
                          FAIRNESS ACT OF 2009

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 20, 2010

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-96




                  U.S. GOVERNMENT PRINTING OFFICE
56-239                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            THADDEUS G. McCOTTER, Michigan
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              GARY G. MILLER, California
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
JOE DONNELLY, Indiana                WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
PAUL E. KANJORSKI, Pennsylvania      ADAM PUTNAM, Florida
LUIS V. GUTIERREZ, Illinois          KENNY MARCHANT, Texas
STEVE DRIEHAUS, Ohio                 LYNN JENKINS, Kansas
MARY JO KILROY, Ohio                 CHRISTOPHER LEE, New York
JIM HIMES, Connecticut
DAN MAFFEI, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    January 20, 2010.............................................     1
Appendix:
    January 20, 2010.............................................    31

                               WITNESSES
                      Wednesday, January 20, 2010

Berenbaum, David, Chief Program Officer, National Community 
  Reinvestment Coalition (NCRC)..................................    19
Delgado, Jeanne McGlynn, Vice President, Business Operations & 
  Risk Management Policy, National Multi Housing Council/National 
  Apartment Association..........................................    20
Gilmore, Brian, Clinical Professor & Staff Attorney, Howard 
  University School of Law, Fair Housing Clinic..................    22
Proll, Leslie M., Director, Washington Office, NAACP Legal 
  Defense & Educational Fund, Inc./Co-Chair of the Leadership 
  Conference on Civil Rights Fair Housing Task Force.............    17
Smith, Shanna L., President and Chief Executive Officer, National 
  Fair Housing Alliance..........................................    15
Trasvina, Hon. John D., Assistant Secretary for Fair Housing and 
  Equal Opportunity, U.S. Department of Housing and Urban 
  Development....................................................     5

                                APPENDIX

Prepared statements:
    Berenbaum, David.............................................    32
    Delgado, Jeanne McGlynn......................................    63
    Gilmore, Brian...............................................    70
    Proll, Leslie M..............................................    76
    Smith, Shanna L..............................................    96
    Trasvina, Hon. John D........................................   110

              Additional Material Submitted for the Record

Green, Hon. Al:
    Letter from Shanna L. Smith, President and CEO, the National 
      Fair Housing Alliance (NFHA), dated January 19, 2010.......   119


                         H.R. 476, THE HOUSING
                          FAIRNESS ACT OF 2009

                              ----------                              


                      Wednesday, January 20, 2010

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters, Velazquez, 
Cleaver, Green, Donnelly, Kanjorski, Himes; Capito, Marchant, 
Jenkins, and Lee.
    Also present: Representative Garrett.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    I would like to thank the ranking member and other members 
of the Subcommittee on Housing and Community Opportunity for 
joining me today for this hearing on H.R. 476, the Housing 
Fairness Act of 2009. Today's hearing will examine Congressman 
Al Green's very important legislation to enhance efforts to 
combat housing discrimination.
    Despite our progress in achieving greater civil rights over 
the past 40 years, the trend of depriving certain communities 
of access to fair housing continues today. Mr. Green's bill 
allows us to finally assess the rampant rates of housing 
discrimination, and will fully fund and establish a Federal 
program to process fair housing violations.
    Today, we will hear from witnesses about the ongoing 
disparities in housing, and the challenges with addressing 
housing discrimination. The witnesses will also discuss how 
H.R. 476 will help them to address these challenges.
    According to a Department of Housing and Urban Development 
report released last year, more Americans are reporting 
incidents of housing discrimination than ever before, with 
disability and race as the leading reasons for filing a 
complaint.
    Despite the growing number of fair housing violations, a 
much greater number of violations go unreported. The National 
Fair Housing Alliance estimates that approximately 4 million 
fair housing violations occur each year, yet less than 31,000 
fair housing complaints were actually filed in 2008, which was 
the highest total number of complaints ever filed in history.
    Furthermore, of those housing violations that were 
reported, private, nonprofit fair housing groups processed 
approximately 20,000 complaints, which was 66 percent of the 
total complaint load. Meanwhile, HUD processed a mere 2,100 
complaints, State and local agencies processed 8,429, and the 
Department of Justice filed 33 fair housing cases. It is clear 
that Federal agencies have either been unable or unwilling to 
effectively identify and address the issue of housing 
discrimination.
    Little has been done to ensure fair and equal access to 
housing among minority populations. We know that high rates of 
racial steering continue to impact African-American and Latino 
communities. Furthermore, a HUD study found that Asian 
Americans and Pacific Islanders also face significant level of 
discrimination when they search for housing in large 
metropolitan areas nationwide. Much more must be done to 
protect the fair housing rights of all of our communities.
    The Federal Fair Housing Initiatives Program (FHIP) was 
established to provide grants to fair housing centers to 
enforce housing laws and educate consumers. However, FHIP has 
never been fully funded. Thus, it is no wonder that so many 
fair housing violations were allowed to occur each year. That 
is why Mr. Green's bill is so crucial.
    H.R. 476 would authorize $20 million annually for HUD to 
administer a nationwide testing program to measure housing 
discrimination, increase funding of the FHIP program to $52 
million annually for 5 years, and require HUD to implement a 
competitive matching grant program for nonprofits to study the 
causes and effects of housing discrimination. The benefits of 
H.R. 476 would be tremendous in preventing millions of fair 
housing violations from taking place in our neediest 
communities.
    In closing, I look forward to hearing from our two panels 
of witnesses on their assessment of H.R. 476, to help further 
fair housing and combat housing discrimination.
    I would now like to recognize our subcommittee's ranking 
member to make an opening statement. Ms. Capito?
    Mrs. Capito. Thank you. I would like to thank the 
chairwoman for the hearing today, and Representative Green for 
his hard work on this issue.
    I would like to enter my statement into the record rather 
than giving it, in the interests of time. But I would also like 
to ask unanimous consent that Congressman Garrett be allowed to 
sit in on the committee. And he is going to make an opening 
statement as well.
    Chairwoman Waters. Thank you very much. I would now like to 
recognize--without objection, it is so ordered.
    Mrs. Capito. Thank you.
    Mr. Garrett. Did the ranking member have a statement that 
she was--
    Mrs. Capito. I yield the rest of my time to you.
    Mr. Garrett. Oh, okay. I thank you for yielding, and I 
thank you for the opportunity to be here. And I also first and 
foremost want to commend Representative Green on offering this 
very important legislation, and I look forward to the 
discussion that ensues.
    But I also want to formally express my concern regarding 
another housing issue that we should be considering as well, 
and that is the bailout of Fannie Mae and Freddie Mac. You 
know, it was just on Christmas Eve when the Obama 
Administration and the Treasury Department expanded and 
extended the bailouts of Fannie Mae and Freddie Mac, and they 
approved a multi-million-dollar compensation package for their 
executives. And the CBO, as we sit here, is currently 
projecting losses of over $400 billion for those entities.
    So when all is said and done, when you think about it and 
we are considering where all this money is going to, the 
bailout of these firms will probably be more expensive than 
what we spent on TARP.
    Now, since Fannie and Freddie were bailed out, we have had 
here in this committee room exactly one full committee hearing 
on the subject, and exactly one subcommittee hearing on this 
issue. Some people have said that this committee therefore has 
been negligent in its oversight responsibilities on this very 
important topic.
    And shortly thereafter, on December 30th, Ranking Member 
Bachus and I wrote a letter to the chairman simply asking him 
to hold a hearing on this issue. Unfortunately, he has not yet 
responded to that request.
    I understand that this topic may cause discomfort to some 
Members of Congress, considering the role that they played in 
shielding the GSEs from any meaningful regulatory scrutiny in 
the period leading up to their collapse. Nonetheless, we should 
not let mistakes of the past prevent us from carrying out our 
oversight responsibilities now going forward.
    I also asked the chairman--the chairman has announced a 
hearing on executive compensation, and that is set for this 
Friday. But apparently, he still refuses the request from 
Ranking Member Bachus to have the heads of Fannie and Freddie 
come to that very important hearing.
    The chairman has also stated, ``The public, having provided 
significant support for the purposes of restoring trust and 
confidence in our country's financial system, rightfully 
insists that large bonuses such as these awarded by 
institutions receiving public funds at a time of serious 
economic downturn should not continue.'' And I agree.
    So in conclusion, as I have heard from many of my 
constituents back home, it is really unacceptable that this 
committee not respond appropriately. And so, once again, I will 
call on the chairman to hold a hearing on this Administration's 
expanded bailout of Fannie Mae and Freddie Mac, and their 
approval of millions of dollars of taxpayers' dollars to 
bonuses to their executives, an issue overarching the issue of 
housing and fairness to the American taxpayer and to the 
American buyer of homes as well.
    And with that, I yield back.
    Chairwoman Waters. Thank you very much.
    Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman. And I thank the 
Ranking Member as well. I would also like to thank the many 
Members of Congress who have been working on fair housing 
issues before 1968, at the time of Dr. King's demise, since 
1968, and in fact, during that year of 1968 because that is 
when the first laws were promulgated. And many have also worked 
since that time.
    As you know, the Fair Housing Act was amended in 1974 to 
include sex discrimination. It was amended in 1988 to deal with 
discrimination based upon family status, familial status. And 
these Members I salute and I thank for what they have done to 
help make this piece of legislation much better than it was at 
the time it was initially developed.
    I would like to mention HUD, because HUD has played an 
important role in this. HUD acquires intelligence and empirical 
evidence such that we can draw conclusions. I would like to 
note that HUD has data indicating that in 2008, 10,552 housing 
discrimination complaints were received. And this was the 
highest number ever received in 2008. It is also interesting to 
note that this was the third year in a row that there were more 
than 10,000 complaints received.
    We should not assume that all of these complaints have been 
based upon color. The truth of the matter is that only 2 
percent were based upon color. This bill could easily be called 
the Disability Fairness Act because 44 percent of those 
discriminated against were persons with disabilities.
    And I would add also that it could easily be called the 
Familial Status Act, because 16 percent of those discriminated 
against were persons who had children, possibly, and could not 
get a place to live because they happened to have a child.
    This bill is very inclusive in terms of how it impacts 
discrimination in housing. And I would hope that persons would 
embrace the notion that we are helping all persons by helping 
the persons who are so designated by the legislation. When you 
help one person, you prevent discrimination against other 
people. It is important for us to remember that this bill is 
very inclusive in terms of how it deals with discrimination.
    It is estimated that about 4 million violations occur each 
year, and 44 percent of these violations were handled by HUD. 
And the question becomes, ultimately, what can we do, working 
with HUD and NGOs, to ensure housing fairness?
    My belief is that we can increase the amount that we spend 
on education. Education is important. Many persons who are 
working in this marketplace, in the housing market, would do 
and behave differently if educated properly. We have to ensure 
that persons understand what the rules are, and my belief is 
that a good number of them will adhere to the rules, 
understanding what they are.
    We should also increase the testing and the enforcement of 
the rules once we find that there are persons who have violated 
the rules. Testing is the best way known to us to acquire the 
empirical evidence of discrimination actually taking place such 
that we can have an actionable means by which we can address 
the discrimination.
    We must do more testing, and we have to publish the fact 
that testing takes place. Testing can also act as a deterrent 
to prevent others from behaving improperly once it is known 
that testing is actually taking place.
    What is testing? Simply put, you send persons out, all 
equally qualified. And if you have some persons who are 
consistently rejected--perhaps a person who is disabled--then 
you can sense that you have a problem with a person with a 
disability as it relates to this particular piece of property. 
Testing really does work. We should do more testing.
    We can also increase the funding for not-for-profit housing 
organizations to engage in investigations, and to also help us 
to understand the real reasons for this discrimination. If we 
don't acquire the empirical evidence to properly make the case 
for why this is happening, it makes it difficult to continue to 
enforce the laws and to develop the proper regulations to 
address the problem.
    We would like to see NGOs have the opportunity to 
promulgate, if you will, testing not only to determine what 
happened but why it is happening. I would also add that we 
should acquire the empirical evidence to understand how all of 
this impacts economic stability.
    There is a body of evidence indicating that economic 
stability was impacted by virtue of the behavior of persons in 
the subprime market in terms of the way they steered persons 
into these loans. I would hope that we could examine this as 
well.
    Thank you, Madam Chairwoman, and I yield back the balance 
of my time.
    Chairwoman Waters. Thank you very much. There are no other 
members desiring to give opening statements at this point. 
Without objection, Representative Garrett will be considered a 
member of the subcommittee for the duration of this hearing.
    At this time, I will introduce our first witness panel. I 
am pleased to welcome our distinguished first panel. Our first 
witness will be the Honorable John Trasvina, Assistant 
Secretary for Fair Housing and Equal Opportunity, U.S. 
Department of Housing and Urban Development.
    Thank you for appearing before the subcommittee today. And 
without objection, your written statement will be made a part 
of the record.
    You will now be recognized for a 5-minute summary of your 
testimony.

    STATEMENT OF THE HONORABLE JOHN D. TRASVINA, ASSISTANT 
    SECRETARY FOR FAIR HOUSING AND EQUAL OPPORTUNITY, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Trasvina. Good morning, Chairwoman Waters, and thank 
you, members of the subcommittee. I am pleased to appear before 
you today on behalf of HUD to discuss our support of and 
recommendations for H.R. 476, the Housing Fairness Act of 2009, 
and the Department's fair housing enforcement program and 
priorities.
    And Congressman Green, in particular, I would like to thank 
you for your tremendous support of fair housing and the fair 
housing initiatives program, and for proposing H.R. 476.
    Thank you, members, for this opportunity to discuss the 
Department's work with private, nonprofit fair housing 
organizations. They are crucial to our mission to create and 
support fair and equitable communities.
    Last year, as was noted, more than 10,000 fair housing 
complaints were filed with the Department, continuing an 
historical high level. However, we know that the number of 
complaints is not a full measure of the extent of 
discrimination.
    Our studies show that even in this day and age, African 
Americans and Hispanics and Asian Americans suffer 
discrimination at least 1 in 5 times that they seek housing. 
Our work and the work of FHIP agencies remains critical.
    The number of cases does not reflect their severity, 
either. One current HUD case has been brought against a trailer 
park owner in Alabama who turned off the water and forced out a 
White family because he objected to the African-American 
boyfriend of one of the tenants. When asked how to get the 
water back on, he responded, ``Lose the Black boyfriend.''
    In addition, he told our investigator that no Federal law 
would tell him who he had to rent to. Well, today your landlord 
cannot tell you who you date, and we vigorously enforce Fair 
Housing Act protections.
    In order to realize fair housing and equal opportunity, we 
need to go farther than we have before and work to create truly 
open and integrated communities. That means not only continuing 
to address specific acts of discrimination, but also using fair 
housing laws to strengthen neighborhoods.
    One way we are doing this is by fulfilling the Fair Housing 
Act's mandate to affirmatively further fair housing. HUD has 
not always ensured that our money is spent in ways that fulfill 
this obligation.
    In this new day, however, there is a Department-wide 
commitment to incorporate our mandate to affirmatively further 
fair housing and to all of our work so that we can fulfill our 
shared goal of truly integrated and balanced living patterns. 
To that end, the Department is revising these regulations.
    In July, the Department held a listening conference in 
which more than 600 people participated, in person and by phone 
and Web across the country. There, fair housing and civil 
rights groups, mayors, and county and State officials all 
voiced their desire for HUD to amend its regulations to provide 
more concrete, specific information and assistance about how to 
develop a meaningful plan for affirmatively furthering fair 
housing.
    Efforts to affirmatively further fair housing are 
incomplete without ensuring that the public has a means of 
redress when their rights are violated. That is why the Fair 
Housing Act complaints are one of our top priorities.
    Individual victims of housing discrimination have an 
immediate need for HUD's fair housing services. The Department 
and its State and local partners in the Fair Housing Assistance 
Program provide these victims with a fair, objective, and free 
investigation of complaints.
    Over the last decade, the Department has become more adept 
at investigating housing discrimination. The number of cases 
completed by the Department and our State and local partners 
has increased by 65 percent, while the length of investigations 
has decreased.
    However, speed must not come at the expense of accuracy. 
Discrimination victims are not served by a piece of paper 
saying they have a good case filed with the government. They 
want action. At the same time, complainants and respondents 
want and deserve the right outcome, not simply a quick one.
    Thirty-eight percent of our complaints closed last year 
resulted in a determination on the merits, or a conciliation or 
settlement agreement. This produced $8.155 million in monetary 
relief, as well as public interest provisions such as fair 
housing training and affirmative marketing.
    Today, as the scourge of housing discrimination continues, 
sometimes in old forms, sometimes in new, we must engage a 
variety of strategies to end these practices, and the FHIP 
program is central to this effort.
    Through the Fair Housing Initiative Program, fair housing 
organizations assist the Department in combating housing 
discrimination. These organizations investigate and resolve 
allegations brought to them by victims of housing 
discrimination, but they do so in a way that is different and 
complimentary to our work.
    FHIP grantees are the Nation's experts in testing, and the 
results of these tests often become key evidence in a housing 
discrimination complaint. A recent major settlement on rental 
design and construction and access for people with disabilities 
was made possible in part by the work of HUD-funded tests.
    You have invited me here today to discuss our fair housing 
strategy and H.R. 476. If enacted, it would provide much-needed 
support for fair housing efforts across the country through 
increased testing for violations, enforcement against those who 
have violated fair housing laws, and study of the causes and 
effects of discrimination.
    The first section of the bill requires HUD to conduct a 
nationwide testing program to detect, document, and measure 
housing discrimination across the country. We fully support 
this proposal. Housing discrimination today is often more 
subtle, and a consumer is not well-positioned to make 
meaningful comparisons of treatment.
    Pair testing, however, is ideally suited to uncover such 
abuses. The $20 million nationwide testing program envisioned 
by this bill would lead not only to greater enforcement 
efforts, but also would deter discrimination.
    On the whole, H.R. 476 is consistent with the priorities 
the Department places on fair housing enforcement, and the 
tools provided by H.R. 476 will advance the Department's 
enforcement of the Nation's fair housing laws in the 21st 
Century.
    This week, as the Nation celebrates the birthday of Dr. 
Martin Luther King, we continue to carry out his dream to end 
housing discrimination. H.R. 476, if enacted, will enhance this 
further, and we look forward to working with the subcommittee 
on this important legislation.
    Thank you.
    [The prepared statement of Assistant Secretary Trasvina can 
be found on page 110 of the appendix.]
    Chairwoman Waters. Thank you very much for your testimony. 
I would like to begin the question period with you.
    If you will, would you please recount for us what happened 
in St. Bernard Parish in New Orleans? As I can recall, there 
were multiple laws developed by the local city council 
basically to keep minorities out of St. Bernard Parish. And 
they defied HUD. They defied the courts. This went on for such 
a long period of time.
    Now, I understand that it may be resolved at this point. 
But tell us what happened there.
    Mr. Trasvina. After Hurricane Katrina, the local government 
there enacted a number of ordinances which had the effect of 
making it difficult to rent to newcomers to the community. One 
ordinance would have required individuals who were prospective 
tenants to be blood relatives of those who already had lived in 
St. Bernard Parish.
    That was subject to litigation. It was struck down. Since 
that time, there have been other ordinances that have been 
proposed. We have worked with the fair housing organizations in 
the New Orleans area that have sued over a number of 
ordinances.
    Since that time, in recent months, we have met with the 
president of the council and other local officials there. So we 
have looked at individual potential acts of discrimination, 
also working with the jurisdiction to try to move forward on--
away from that type of restriction because as you note, it was 
designed to limit the ability of people to rent in St. Bernard 
Parish.
    Chairwoman Waters. So do they still have an ordinance 
against multi-family development in St. Bernard Parish?
    Mr. Trasvina. There continue to be restrictions on renting, 
including requiring particular licenses in order to be able to 
rent out your home. And these licenses are restricted based 
upon--you can't have more than one rental being made available 
within a certain number of feet of another. There are pending 
discrimination complaints now with us, so we continue to 
investigate.
    Chairwoman Waters. Are we continuing to--do they get 
Federal funding in any way in St. Bernard Parish?
    Mr. Trasvina. We are looking at that very closely, and that 
is--
    Chairwoman Waters. This has been going on a long time, 
hasn't it?
    Mr. Trasvina. That is correct. The--
    Chairwoman Waters. So how much longer is it going to go on?
    Mr. Trasvina. The litigation, of which we are not a part, 
is continuing. The decision about funding and our expressions 
of where St. Bernard Parish needs to be is ongoing.
    Chairwoman Waters. Let me back up. As I understand it, one 
of the remedies or ways of dealing with discrimination is to 
discontinue Federal funding. Is that right?
    Mr. Trasvina. That is correct.
    Chairwoman Waters. And as far as I know, Katrina took 
place, what, almost 5 years ago? How long has it been?
    Mr. Trasvina. I believe it has been 4\1/2\ years.
    Chairwoman Waters. How long have you been involved--
    Mr. Trasvina. 4\1/2\ years ago.
    Chairwoman Waters. 4\1/2\ years ago.
    Mr. Trasvina. Yes.
    Chairwoman Waters. And this case or these cases have been 
going on for 4\1/2\ years?
    Mr. Trasvina. No. They haven't been going on for 4\1/2\ 
years. Some of the initial litigation has been successful. So 
there have been a series of ordinances. The most recent 
ordinance was upheld, but we are working with St. Bernard 
Parish to ascertain the impact of the most recent ordinance.
    Chairwoman Waters. Do you want to tell me what you have 
done to stop discrimination in St. Bernard Parish?
    Mr. Trasvina. We have--
    Chairwoman Waters. What has HUD done?
    Mr. Trasvina. HUD has worked with the parish to evolve 
these ordinances away from the original ordinances. We are now 
examining the particular complaints that we have. We do not 
have a determination on the current ordinance right now.
    Chairwoman Waters. I don't know what you just said. But 
anyhow, you have not been successful yet in helping to contain 
the local city council in its efforts to prevent minorities 
from living in St. Bernard Parish. You just have not been 
successful.
    Mr. Trasvina. That is correct. We are not yet there, where 
we need to be. And--
    Chairwoman Waters. So how can we have any faith in your 
ability to deal with discrimination if you have been working on 
these cases for such a long time and they have been in 
defiance, I think, of the U.S. District Court on these 
discrimination ordinances. But you have not been able to do 
anything. Is that right? Up until this point, you have not been 
able to turn around any of that?
    Mr. Trasvina. We have not pulled the funding from St. 
Bernard Parish. That is correct.
    Chairwoman Waters. When are you going to do it?
    Mr. Trasvina. We continue to work on that. And as we 
resolve the complaints, the jurisdiction will have the 
opportunity to make its changes before we pull funding. Our 
goal is not necessarily to pull funding. Our goal is to make 
sure that they are not discriminating.
    Chairwoman Waters. But you haven't done that very well, 
have you?
    Let me turn to Ms. Capito for 5 minutes.
    Mrs. Capito. Thank you. I would like to ask a question 
about the Fair Housing Initiative Program, where you have 
nonprofits that get grants to do testing and other--how many 
nonprofits are currently being funded under this program?
    Mr. Trasvina. About 98.
    Mrs. Capito. 98 across the country?
    Mr. Trasvina. No.
    Mrs. Capito. Is ACORN one of those organizations?
    Mr. Trasvina. No. ACORN is not receiving funding currently.
    Mrs. Capito. How do you evaluate the effectiveness of your 
grantees at this point, the 98 that are receiving grants? 
Because this bill would expand the funding to these 
organizations, with the ability to fund even more organizations 
quite a bit. What kind of evaluation do you have of the 98 that 
are receiving the funds now as to their effectiveness?
    Mr. Trasvina. They go through a funding competition at the 
front end, where we have a technical assessment panel looking 
at their ability and effectiveness in fair housing and their 
ability to perform what they plan to do.
    On the back end, we have government monitors who review 
particular cases that they handle, review their effectiveness. 
I would say that overall, without talking about anyone in 
particular, overall, the cases that come from the FHIPs to us 
result in a one-fifth higher level of discrimination than other 
cases.
    They are effective in bringing us cases where there is 
discrimination, so they are effective in discerning it. Also, 
they are effective in educating communities about what their 
rights and responsibilities are.
    Mrs. Capito. Do you also monitor aggrieved persons who are 
subject to unfair housing practices, that maybe their own 
claims through Federal court on their own, or maybe through a 
State or local entity? How do those numbers compare with the 
number of cases that come through HUD, or with the help of one 
of these, what do you call them, FHIPs? Am I saying that right?
    Mr. Trasvina. Yes. The FHIPs.
    Mrs. Capito. Yes.
    Mr. Trasvina. Yes. Well, the FHIPs have a different process 
than we do. Oftentimes, the FHIPs get information directly, and 
they work informally because they are there locally in the 
community. They work informally with the person who feels they 
have been discriminated against and the prospective landlord or 
homeowner and conciliate their cases.
    Mrs. Capito. So the cases might not reach the point of 
either litigation or anything of that nature, but would be 
worked out at the local level without HUD's direct involvement. 
Is that correct?
    Mr. Trasvina. That is correct. And in fact, Congresswoman, 
many of our cases, about a third of our cases, are conciliated 
prior to any particular finding. The statute requires that 
every step of the way, conciliation is attempted.
    Mrs. Capito. What is the biggest reason for housing 
discrimination, in your opinion? Why are people discriminated 
against? Is it race? Is it age? Disability?
    Mr. Trasvina. The single largest cases come in the 
disability area. In terms of the reason why, oftentimes it is 
education, people not knowing what their obligations are under 
the Fair Housing Act as well as not knowing what their rights 
are.
    Mrs. Capito. So most of the discrimination would be 
somebody, say, who might be wheelchair-bound, or something of 
that nature, not having access? Is that what you are saying?
    Mr. Trasvina. It could be the failure of a landlord or 
housing provider to have a reasonable accommodation for that 
individual, for example, yes.
    Mrs. Capito. Okay. Thank you.
    Mr. Trasvina. Thank you.
    Chairwoman Waters. Ms. Velazquez?
    Ms. Velazquez. Thank you, Madam Chairwoman. Mr. Trasvina, 
thank you for everything you do--
    Mr. Trasvina. Good morning.
    Ms. Velazquez. --in keeping people informed as to their 
rights. But I believe that, given the outcomes that we have 
seen with this housing crisis, there is a long way to go. And 
we cannot wait until we achieve housing stabilization to get 
people really educated as to their rights.
    In New York City, during the height of the subprime market, 
Black borrowers were 5 times more likely than White borrowers 
to enter into a high-cost loan. For Hispanics, the percentage 
was 3\1/2\ times higher than White borrowers.
    Can you talk to us about what type of efforts, outreach 
efforts, are in place now to ensure that minorities and those 
with limited English proficiency are better informed about 
their rights when it comes to housing rights? And I just would 
like your opinion as to how do you expect H.R. 476 will help 
address these issues?
    Mr. Trasvina. Yes, Congresswoman Velazquez. Since I came on 
board in May, we conducted a language assessment of all of our 
offices around the country to determine what languages HUD 
speaks. And since that time, we have translated about a dozen 
key HUD documents, not just in fair housing but in other parts 
of HUD. We have translated two dozen documents into a dozen 
different languages to make ourselves better accessible to 
individuals and to community groups.
    Ms. Velazquez. It is not only about languages, but it is 
also about enforcement and oversight. So can you talk to us 
about that?
    Mr. Trasvina. Yes. That is correct. In terms of other types 
of efforts, we work collaboratively with the Department of 
Justice, with the civil rights division, the Federal Trade 
Commission, so that the authority over lending, the authority 
over fair housing, exists in other parts of the government. So 
we work collaboratively with them.
    About 5 percent of our cases come in the area of lending 
discrimination. And last year, we obtained over $2 million in 
individual relief for victims of lending discrimination.
    Moving forward on H.R. 476, what is already, I think, of 
critical importance is the role that the FHIP agencies play in 
reaching communities that, frankly, the government is less able 
to do. For example, with the Asian-American community, only 1 
percent of our cases come from the Asian-American community.
    We rely on our partners within the community to reach out. 
Because of historic distrust and a lack of trust of government 
agencies, they are an important bridge to those communities for 
enforcement and also for education.
    Ms. Velazquez. What additional resources and/or 
partnerships are needed to provide greater outreach to limited 
English proficiency communities to prevent housing 
discrimination?
    Mr. Trasvina. Certainly, the ability to reach beyond the 
fair housing community into the other trusted institutions 
within communities would benefit us. We have to go beyond just 
going more than 50 percent of the way. We need to go 90 percent 
of the way there. And that is why we are increasing our 
efforts.
    One of the things that we just announced at Tennessee State 
University this Monday was a university partnership so that we 
will be training the next generation of fair housing activists 
and those who can take the message out, not only for themselves 
as new renters, but also to the families. And those 
particularly in the generation of the first college graduates, 
they often take the message back to the community.
    Ms. Velazquez. Thank you. Thank you, Madam Chairwoman.
    Chairwoman Waters. You are welcome.
    Mr. Marchant?
    Mr. Marchant. Does your agency monitor the number of 
private lawsuits that have been filed as a result of perceived 
discrimination nationwide or State by State?
    Mr. Trasvina. Not State by State. But we monitor those 
cases, yes.
    Mr. Marchant. So how many private actions would you 
estimate there are across the Nation right now?
    Mr. Trasvina. I don't know whether we have that number. But 
I think what is key, though, is not so much that they are the 
actions. Some can go straight into Federal court. But most of 
them are resolved informally. So as I said earlier, a third of 
our cases are conciliated; many, many cases by the fair housing 
groups are brought informally. They often do not result in 
actual Federal court litigation.
    Mr. Marchant. So most of the cases that you investigate and 
handle have not gone to the stage of litigation yet?
    Mr. Trasvina. That is correct.
    Mr. Marchant. Do you have a--what is the penalty if a 
person is found guilty of discrimination? What is the typical 
penalty?
    Mr. Trasvina. The penalty can vary. It is in the thousands 
of dollars for individual violations. But really, the key is 
getting damages for the individual victims of discrimination, 
fair housing training, and fines.
    Mr. Marchant. What would be the desired result of the 
nationwide testing?
    Mr. Trasvina. The desired result of nationwide testing 
would be twofold. One is to get a better sense as to how much 
discrimination is out there. The testing is unique in its 
ability to really reflect what is going on in a real-life 
situation.
    Surveys don't do it. Looking at the enforcement patterns 
doesn't do it. But testing does do it because it sends out two 
trained individuals going out at pretty much the same time. The 
only characteristic being different is what you are testing 
for, whether it is gender or race or disability, and being able 
to get back information about an environment where there may be 
discrimination.
    It also helps us in terms of enforcement. So the goal of 
testing would be to get an assessment of where we are, what 
progress we have made, and also possible enforcement actions.
    Mr. Marchant. What would be the budget of the Fair Housing 
and Equal Opportunity Division of HUD? What is your operating 
budget?
    Mr. Trasvina. Our budget, for the FHIP and the FHAP 
program, it is $50 million. And then we have 600 staff around 
the country.
    Mr. Marchant. So this $50 million--the $20 million would be 
outside of that $50 million?
    Mr. Trasvina. That is correct.
    Mr. Marchant. And then how much is this bill increasing--so 
it is increasing at $2 million. From $50 million to $52 million 
is what this bill increases your budget?
    Mr. Trasvina. Those are the FHIP grants, the grants out to 
the fair housing organizations.
    Mr. Marchant. Okay. So $5 million?
    Mr. Trasvina. Yes.
    Mr. Marchant. Okay. And your purpose for doing that would 
be to target--would you have a target discrimination that you 
are looking for, or this would just be a test that would be 
neutral, and you would be looking for the sources of 
discrimination?
    Mr. Trasvina. This would allow us to use the expertise of 
fair housing organizations in a much better way. For example, 
you go from the State of Louisiana up to the State of Idaho, 
and everywhere north and everywhere west, you have the same 
number of FHIP organizations as the States of Ohio and 
Michigan.
    We are missing vast parts of the country with the amount of 
resources we have with the FHIP grantees right now. So this 
would enable us to have the same level of quick understanding 
of what is going on in communities, both in terms of education 
and enforcement, in vast parts of the country that we currently 
have in only a few States.
    Mr. Marchant. Thank you, Madam Chairwoman.
    Chairwoman Waters. Mr. Green?
    Mr. Green. Thank you, Madam Chairwoman. And thank you for 
your testimony today, sir. Let me ask quickly a series of 
questions.
    One, is it true that the best way to acquire empirical 
evidence of this type of invidious discrimination is testing?
    Mr. Trasvina. Testing is both well-accepted by the courts--
    Mr. Green. Is it true that this is--
    Mr. Trasvina. It is--
    Mr. Green. But I need to go on, so I need for you to just 
answer yes or no, if you would. I am sorry. I have a lot that I 
have to cover.
    Mr. Trasvina. Yes.
    Mr. Green. Is it true that this is the best way to acquire 
the actual evidence of what happened?
    Mr. Trasvina. Yes.
    Mr. Green. And is it true that those who would perpetrate 
these kinds of dastardly deeds, who would want to perpetuate 
discrimination, isn't it true that they fear testing?
    Mr. Trasvina. That is correct. A greater amount of testing 
will produce greater enforcement.
    Mr. Green. In fact, testing is the thing that they fear the 
most because they know that they will be caught red-handed if 
they are tested. And they fear testing. True?
    Mr. Trasvina. I would say that, yes.
    Mr. Green. And isn't it true that if we really are serious 
about ending this kind of ugly behavior, we should invest in 
testing?
    Mr. Trasvina. We do need testing, yes. We are very 
supportive of the testing program.
    Mr. Green. And isn't it true that testing not only benefits 
persons of color, but it also benefits veterans because many of 
them are among those persons who are disabled and among those 
persons who are being discriminated against when they are 
trying to get housing in a fair way? Isn't it true that it will 
benefit veterans?
    Mr. Trasvina. Yes.
    Mr. Green. Isn't it true that this legislation, while it 
does increase funding, isn't it true that if we are serious 
about it, we would invest as much as we can so that we can move 
as expeditiously as we can because of situations like the one 
that was called to our attention by our chairwoman, wherein we 
are moving on it but we haven't moved as expeditiously as we 
can move, and we need more help to move through these programs.
    Is this true, that you need more help?
    Mr. Trasvina. Yes. We need more resources and we need more 
help.
    Mr. Green. Now, finally, let me ask you this. With 
reference to pre-application testing, you have a good number of 
programs in place. Let's talk about post-application testing. 
Do you do any post-application testing? Post-application 
meaning after you have applied for a loan, after you have 
started that process of applying for the loan.
    Mr. Trasvina. Right now, we do not. The problem is that 
there are other laws that restrict testing in that area. Every 
actual loan application must be a bona fide loan application, 
and testing by its nature is a test.
    Mr. Green. And isn't it true that you have anecdotal 
evidence of discrimination taking place in the post-application 
process?
    Mr. Trasvina. Yes. And that is why--we would also look and 
want to work with you on this bill--
    Mr. Green. And isn't it true--
    Mr. Trasvina. --to make it easier for us to do post-
application testing.
    Mr. Green. Yes, sir. You really answered my question. But 
just to continue, to make sure that I have it for the record, 
isn't it true that it would be of great benefit to have 
empirical evidence of the invidious discrimination that takes 
place in post-application testing?
    Mr. Trasvina. Yes, it would, Congressman.
    Mr. Green. And, now, let's talk just briefly about 
children. We don't talk a lot about how this has impacted the 
ability of parents to acquire a place to call home for their 
children. There are people in this country who will 
discriminate against you because you have a child and you want 
a place to stay. Is this true?
    Mr. Trasvina. Yes.
    Mr. Green. And isn't it true that this testing is going to 
help children have a place to call home because with this 
testing, we can cause persons to know that they will be 
punished if they discriminate against children? True?
    Mr. Trasvina. It will help us eradicate the familial 
discrimination.
    Mr. Green. And the final thing is this. Would it not be 
helpful to publish the fact that testing is taking place? 
Wouldn't it be helpful for you to have the ability to say to 
the world, we have caught some folks. We are looking for 
others. Testing is taking place in this country. Would that act 
as a deterrent?
    Mr. Trasvina. It certainly would after the testing is done. 
Prior to the testing being done, it probably would hurt the 
results of the test. But yes, certainly afterwards.
    Mr. Green. Thank you. And Madam Chairwoman, if I may, I 
would like to submit for the record a letter in support of this 
legislation from the National Fair Housing Alliance. And I 
would ask that it be done without objection.
    Chairwoman Waters. Without objection, it is so ordered.
    Mr. Green. Thank you, Madam Chairwoman. And I will yield 
back the balance of my time. You have been very gracious.
    Chairwoman Waters. Thank you very much.
    Mr. Donnelly?
    Mr. Donnelly. No, thank you.
    Chairwoman Waters. If there are no other questions from the 
members of the panel, I would like to thank this witness for 
his testimony. And we have 30 additional days for members to 
submit questions. Thank you very much.
    Mr. Trasvina. Thank you.
    Chairwoman Waters. I would now like to call on the second 
panel.
    Our first witness will be Ms. Shanna Smith, president and 
CEO of the National Fair Housing Alliance.
    Our second witness will be Ms. Leslie Proll, director of 
the Washington office, NAACP Legal Defense and Educational 
Fund, Incorporated, and co-chair of the Leadership Conference 
on Civil Rights Fair Housing Task Force.
    Our third witness will be Mr. David Berenbaum, chief 
program officer, National Community Reinvestment Coalition.
    Our fourth witness will be Ms. Jeanne McGlynn Delgado, vice 
president, business and risk management policy, the National 
Multi Housing Council, and here on behalf of the National 
Apartment Association.
    And our fifth witness will be Professor Brian Gilmore, 
director, Fair Housing Clinic, Howard University School of Law.
    Without objection, your written statements will be made a 
part of the record. You will now be recognized for a 5-minute 
summary of your testimony. And we will start with our very 
first witness, Ms. Shanna Smith.

  STATEMENT OF SHANNA L. SMITH, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, NATIONAL FAIR HOUSING ALLIANCE

    Ms. Smith. Thank you, Chairwoman Waters, and thank you, 
Ranking Member Capito, for inviting me to speak about H.R. 476. 
And I would like to thank Representative Al Green for 
introducing the legislation.
    I have spent my entire career working in fair housing, both 
in enforcement and education, and education from the standpoint 
of teaching people how to recognize and report discrimination, 
but also working with the industry to teach them how to comply 
with the laws.
    The National Fair Housing Alliance is made up the private, 
nonprofit fair housing centers in the United States. There are 
fewer than 100. There are none, for example, in West Virginia, 
and there are other States that have no private fair housing 
groups.
    The private fair housing group, for example, in Toledo, 
Ohio, serves that metropolitan area. It doesn't serve the whole 
State of Ohio. These are locally-based organizations.
    I am here today to provide strong support for H.R. 476. And 
I am optimistic because the Fair Housing Act has always enjoyed 
great bipartisan support. After Dr. King was assassinated, 
President Johnson went to Senators Mondale and Brooke and said, 
``You had been pushing this legislation,'' and within 7 days, 
the first Fair Housing Act was passed. And as Representative 
Green pointed out, we have had amendments to the law and have 
always enjoyed great bipartisan support.
    This legislation currently will improve both enforcement 
and education efforts surrounding discrimination in housing, in 
the rental market, in the sales market, in the lending markets, 
and in the homeowners insurance markets. It will provide sorely 
needed funding for nationwide systemic enforcement.
    One of the reasons systemic enforcement is critical is 
because there are so few fair housing centers in the United 
States. It has been since 1991 when the disability amendment 
became effective under the 1988 amendments. And the National 
Fair Housing Alliance really didn't look at design and 
construction cases because we were relying on the Department of 
Justice, HUD, and other local groups to see that issue.
    But 2 years ago, we decided to look at it because we kept 
seeing the largest builders still building properties that were 
inaccessible to people who use wheelchairs, to people with 
mobility issues. And we filed a lawsuit, along with our fair 
housing groups, in Napa Valley, in Marin, California, in 
Atlanta, Georgia, and in Melbourne, Florida, against the 5th 
largest builder in the United States, the A.G. Spanos 
Companies.
    We resolved that case recently. And what I think is unique 
about the way we resolve cases, it is not just about money. It 
is not just about damages. While this case, design and 
construction case, settled for around $15 million, it included 
the Spanos Companies modifying and retrofitting 82 apartment 
buildings that they had built since 1991.
    It also includes a $4.6 million retrofit fund. They had 123 
buildings they built, and not all of them could be retrofitted. 
So we were able to include a fund where we can make grants to 
people who currently live in homes or currently live in 
apartments anywhere in the United States that are inaccessible.
    And then the beauty of the settlement is we are working 
very closely with the Spanos Companies so this kind of mistake 
doesn't happen ever again. And we are providing expertise and 
expert information about their future developments.
    We had the same kind of partners resolve in administrative 
complaints with State Farm Insurance Company, Nationwide, and 
Allstate Insurance Company. So the goal of the private fair 
housing movement is not just to be combative, but to develop 
partnerships so discrimination doesn't continue. With systemic 
investigations, we are able to fill the gap in the United 
States where is no fair housing enforcement.
    Kansas doesn't have a fair housing center any more. There 
are other States that have no private fair housing centers. And 
I would just like to say that the increase in the FHIP funding 
is critical because right now, each fair housing center can get 
a maximum of $275,000.
    When you look at L.A., Houston, Dallas, New York, Atlanta, 
Chicago, San Francisco--you know, $275,000 is a drop in the 
bucket. So we do have to increase the funding, but we have to 
be wise about how we use that, and figure out how to proportion 
the money according to the geographic population being served.
    And finally, education is critical. In the area of 
education, we have supported multinational media campaigns. 
State Farm supported us in creating the first campaign that 
promotes residential integration. All the other campaigns have 
been teaching people how to recognize and report 
discrimination, which is absolutely necessary.
    But we also wanted to have a partner campaign saying, why 
is it good that we live together? Because, after all, people 
learn to live together by actually living together. And we see 
in the mortgage lending crisis the problem of our inability to 
investigate beyond the pre-application stage.
    And so we would recommend that this piece of legislation 
also include language that would allow private fair housing 
groups, through approval with the Department of Justice--
because I don't think this privilege of doing these 
investigations should be done willy-nilly--but approval of the 
Justice Department to allow us to do full application testing, 
create profiles in the credit bureau system, and not face risk 
of a felony charge by the U.S. Attorney because we have created 
these profiles and we are testing through the whole process.
    So we are testing underwriting. We are testing the 
appraisal practices. We are testing the private insurance 
companies. And my time is up, but that is one of the other 
things I think we need in this piece of legislation. Thank you.
    [The prepared statement of Ms. Smith can be found on page 
96 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Leslie Proll?

  STATEMENT OF LESLIE M. PROLL, DIRECTOR, WASHINGTON OFFICE, 
 NAACP LEGAL DEFENSE & EDUCATIONAL FUND, INC./CO-CHAIR OF THE 
 LEADERSHIP CONFERENCE ON CIVIL RIGHTS FAIR HOUSING TASK FORCE

    Ms. Proll. Chairwoman Waters, Ranking Member Capito, thank 
you for allowing the NAACP Legal Defense Fund to testify today. 
We are the Nation's oldest civil rights legal organization. 
Since Thurgood Marshall argued Shelley v. Kraemer, which 
outlawed racially restrictive covenants, we have fought against 
housing discrimination.
    Sixty years after Shelley and 40 years after passage of the 
Fair Housing Act, our Nation remains largely segregated by 
race. The impact of housing discrimination on racial isolation 
and concentrated poverty is just as powerful today as it was 
when lawyers told the Supreme Court in Shelley that: ``The 
effects of discrimination permeate the community and exert a 
baneful influence upon the economic, social, moral, and 
physical well-being of all persons, White and Black, young and 
old, rich and poor.''
    We are pleased to testify here today in support of H.R. 476 
for several reasons. First, the bill recognizes the unique role 
of private fair housing organizations. These organizations are 
the mainstay of the fair housing movement. They are on the 
ground collecting information over time and monitoring housing 
patterns in their own communities.
    Their local leadership, continuity, and familiarity with 
the local housing industry ensured that incidents of housing 
discrimination, systemic issues, and problematic trends are 
identified and redressed. And frankly, their onsite capacity 
for civil rights monitoring and enforcement is unparalleled.
    We also support an enhanced role for testing in fair 
housing enforcement. As civil rights litigators, we cannot 
overstate the importance of testing in identifying 
discrimination, and courts have recognized this for 30 years.
    Discrimination in the 21st Century is more subtle and more 
sophisticated, and testing is absolutely necessary to detect 
it. A key component of this testing program is its systemic 
nature. We must confront the structural discrimination 
underlying our housing patterns. We can no longer be satisfied 
with fair housing enforcement on a case-by-case basis. That 
approach is similar to trying to desegregate schools one 
student at a time.
    The systemic approach is consistent with the government's 
longstanding tradition of focusing on large-scale forms of 
discrimination that otherwise will not be redressed. This is 
more costly, complicated, and protracted, but it is precisely 
the type of investigation in which the government should bring 
to bear its extraordinary resources.
    The government can uncover far-reaching discrimination in a 
manner that cannot be accomplished through the budgets of fair 
housing organizations, civil rights organizations such as my 
own, or private attorneys. And the program, as Congressman 
Green said, can have a deterrent impact on the housing industry 
as well.
    A nationwide testing program comes at an opportune time. In 
the past decade, we have lamented the lax enforcement of fair 
housing laws by the government. The number of race cases 
decreased despite no drop in discrimination, and the Justice 
Department's own testing program was severely underutilized.
    The new testing program should test across the housing 
industry. A program focused only on rental testing will not 
address all the segregative forces at work. More sales testing 
needs to be conducted. From 2000 to 2008, the Civil Rights 
Division filed no cases based on sales tests, despite the fact 
it was designed in part to challenge sales discrimination.
    We are pleased by the Civil Rights Division announcement of 
an aggressive campaign against redlining. But the government 
should also adopt measures for undertaking testing in lending. 
Fair lending principles should be included in all remedial 
legislation and policy initiatives to address the financial 
crisis. And data on race and ethnicity should be collected when 
implementing foreclosure relief programs, and made publicly 
available so that programs could be monitored for compliance 
with fair housing laws.
    Finally, we applaud the provision of grants to study the 
causes of discrimination and segregation, and to evaluate their 
effects on education in particular. At the Legal Defense Fund, 
we recognize the deep structural role that residential 
segregation plays in perpetuating inequality in our Nation's 
schools.
    The racial makeup of neighborhoods is the most important 
determinant of the racial composition of the schools within 
them. With the increasing rarity of court-ordered desegregation 
and judicial limits on voluntary integration programs, 
students' educational fates are dependent upon where they live.
    In conclusion, persistent housing discrimination, which 
continues to plague our Nation decades after it was outlawed, 
imposes high societal costs. Congress should do everything 
within its power to ensure that the Federal fair housing laws 
are enforced strongly and fully.
    Now is the time for a new approach to redressing and 
eradicating housing discrimination. With H.R. 476, we are off 
to a very good start. Thank you.
    [The prepared statement of Ms. Proll can be found on page 
76 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. David Berenbaum?

 STATEMENT OF DAVID BERENBAUM, CHIEF PROGRAM OFFICER, NATIONAL 
            COMMUNITY REINVESTMENT COALITION (NCRC)

    Mr. Berenbaum. Thank you, Chairwoman Waters, Ranking Member 
Capito, and other members of the committee.
    The National Community Reinvestment Coalition is pleased to 
appear here to strongly endorse the Housing Fairness Act of 
2009, and to also testify regarding other aspects of the 
current mortgage crisis that our Nation is facing.
    In recent months, regulators, the White House, and Members 
of Congress alike have acknowledged that unfair, deceptive, or 
otherwise poor business practices by lenders and other mortgage 
finance-related institutions played a critical role in the 
current housing crisis.
    Also well-known is the fact that a disproportionate share 
of abusive, non-traditional, and high-cost lending have 
targeted financially vulnerable consumers, in particular 
African-American and Latino households and communities. Quite 
frankly, this has not been an equal opportunity recession.
    Study after study produced by the National Community 
Reinvestment Coalition, Federal regulators, and a host of other 
academic and not-for-profit organizations have documented 
disparities in lending in this Nation.
    It is a curious irony that a majority of the meaningful 
complaints that have been filed in the fair lending space 
against rating agencies; against lenders who redlined, clearly 
a stupid business practice; against in fact large national real 
estate affiliates; large, in fact, underwriters and others in 
this space, have been identified by private not-for-profit 
organizations or State attorneys general, not by the very 
regulators who were charged to police, in fact, our public 
needs in the space of fair housing.
    We strongly support this bill, Congressman Green, but urge, 
in fact, the committee to increase the amount of funds--$20 
million is a drop in the bucket. This is a national crisis. We 
either float or sink on what in fact is a changing demographic 
in this Nation.
    We are becoming more and more diverse, and businesses that 
do not meet the needs of African Americans, Latinos, families 
with children, and other members of our society are, frankly, 
not competing to position themselves in a profitable way as we 
move ahead into the future.
    Specifically, there are issues emerging every day. Today, 
FHA Commissioner David Stevens announced reforms to the FHA 
lending program. This is a very complex issue. But here is a 
fair lending issue right on top of the announcement--580 is an 
interesting number for the FICO credit score. It is an attempt 
to compromise on a very important issue to ensure appropriate 
capitalization and liquidity, access to credit in the 
marketplace. But look at all of the national lenders at this 
moment in time who in fact are using 620 and higher FICO 
scores.
    That has a disparate impact on the basis of race. And where 
have our fair lending regulators been? It is once again the 
private fair housing movement that is identifying this issue 
ahead of regulatory agencies and that paradigm has to change.
    I fully support the earlier testimony of the National Fair 
Housing Alliance, and also the NAACP Legal Defense Fund. This 
is serious stuff. The fair lending testing that the National 
Community Reinvestment Coalition has been doing with many of 
our fair housing members, in fact, is a very, very small 
amount.
    On top of that, we applaud the effort of corporations who 
are also doing self-testing. If we are going to change the per 
diem, if we are going to promote an open housing market, we as 
a nation have to live up to the aspirations that Dr. Martin 
Luther King saw and this Congress saw when they passed the 
Federal Fair Housing Act.
    Thank you.
    [The prepared statement of Mr. Berenbaum can be found on 
page 32 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Delgado?

 STATEMENT OF JEANNE McGLYNN DELGADO, VICE PRESIDENT, BUSINESS 
  OPERATIONS & RISK MANAGEMENT POLICY, NATIONAL MULTI HOUSING 
             COUNCIL/NATIONAL APARTMENT ASSOCIATION

    Ms. Delgado. Good morning. Chairwoman Waters, Ranking 
Member Capito, and distinguished members of the subcommittee, 
my name is Jeanne McGlynn Delgado, and I am the vice president, 
business operations and risk management policy at the National 
Multi Housing Council.
    This morning, I am here on behalf of two trade 
associations, my own and the National Apartment Association. 
Our combined memberships include apartment owners, developers, 
managers, builders, and lenders.
    It is a privilege to be here today, and I commend you, 
Chairwoman Waters, for your leadership in holding this hearing 
to discuss the various stakeholder perspectives on H.R. 476. 
And we commend Congressman Green for his leadership in Congress 
and his continued pursuit of equal opportunity for all.
    One in three Americans, or 117 million households, rent 
their homes. Housing discrimination in the rental market 
reduces the number of people who otherwise would lease an 
apartment. For the record, as advocates who are passionate 
about the benefits of renting, we would like to see the number 
of renter households in America grow, not decline. Simply put, 
housing discrimination makes bad business sense.
    However, with respect to the issue at hand, I am sure it 
will come as no surprise that the apartment industry does not 
exactly embrace additional testing as the best means to combat 
housing discrimination, at least not in its current form.
    While we support the goal of reducing housing 
discrimination, we believe the creation of a national testing 
program and a doubling of FHIP funds by itself is not enough to 
effect the desired change. Therefore, we offer the following 
observations and recommendations: first, we believe that before 
instituting another testing program, HUD should conduct a 
comprehensive review of the existing testing programs to 
measure their effectiveness, efficiencies, and fairness; 
second, after completion of this assessment, HUD should 
consider alternative approaches to current testing protocol; 
and third, HUD should expand its commitment to industry 
education and outreach efforts.
    We come to these recommendations with a strong belief that 
more of the same just doesn't work. There seems to be an 
underlying assumption that fair housing testing equals 
effective enforcement, and that simply increasing the number of 
complaints brought against property owners will eradicate 
housing discrimination.
    We disagree. There is no shortage of studies, reports, and 
analysis quantifying the level of discrimination in housing. 
However, we are unaware of any research that has measured the 
effectiveness of the federally-funded testing programs.
    So regardless of how we feel about testing in general, 
clearly, testing files contain valuable data and information 
that can help inform more effective, not to mention efficient, 
methods for identifying discriminatory practices and methods to 
enforce the law against such practices.
    While testing for housing discrimination appears fairly 
straightforward, tests and test results can vary widely. Let me 
share an example of the kinds of testing cases that can be 
studied.
    A testing program in 2006 in a county in Virginia involved 
testers making site visits to measure different treatment, with 
an inquiry for a one-bedroom apartment for a specific time 
period. The tests were designed to measure the treatment 
relative to the availability of the unit at the described time 
based on national origin or race.
    In the 50 tests conducted, none showed a difference in 
treatment. While you might think that is great for the 
apartment industry, it could easily have gone the other 
direction, as it did in the following similar testing 
situation.
    In a Maryland city, paired testers seeking a one-bedroom 
apartment were testing for different treatment based on 
national origin. In this scenario, a complaint was filed when 
the minority tester received a price quote that was higher than 
the White tester.
    After a lengthy and costly investigation, guest cards 
completed by both testers revealed evidence causing the 
complaint to be dismissed. While one tester sought a one-
bedroom unit, the other tester actually requested a one-bedroom 
den unit, thus explaining the difference in price.
    A simple mistake made by the tester resulted in an unfair 
complaint of discrimination lodged against a housing provider 
with an otherwise excellent reputation with residents, 
employees, and in the community. Lessons can be learned from 
these unfortunate experiences. And as a result, the enforcement 
tools could be made more effective.
    These are just a few examples of how testing results can be 
inconsistent even when the strategy is fairly straightforward. 
The likelihood for errors and missteps increases in more 
complex situations.
    In these studies, we suggest that emphasis should be given 
to those complaints that were investigated and later dismissed 
with a finding of no reasonable cause. According to the HUD 
2008 annual report, in the 2,156 cases closed, of these, 44 
percent were dismissed for no reasonable cause. This is a 
significant number. Of course, not all of these involved 
testing, but it is a statistic that begs further review.
    Let me shift for a moment to what the existing tests and 
studies don't reveal, and that is the damage caused by an 
unfair complaint. Just as home-seekers can be victims when 
subjected to housing discrimination, property owners wrongly 
accused become victims, too.
    When a property owner, or specifically his or her staff, is 
wrongly accused of discrimination, the damage caused can be 
severe and long-lasting.
    [The prepared statement of Ms. Delgado can be found on page 
63 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. Delgado. Your 
time is up.
    Professor Brian Gilmore?

    STATEMENT OF BRIAN GILMORE, CLINICAL PROFESSOR & STAFF 
 ATTORNEY, HOWARD UNIVERSITY SCHOOL OF LAW, FAIR HOUSING CLINIC

    Mr. Gilmore. Thank you, Congresswoman Waters, and other 
members of the committee. I am from the Howard University 
School of Law Fair Housing Clinic and we have been in operation 
for 5 years. Our students go out in the community and they 
educate consumers about their housing and fair housing rights, 
about the law in the fair housing area, and in other aspects of 
fair housing.
    We fully support H.R. 476, the Housing Fairness Act, as it 
is in line with the kind of work we do on a daily basis. Our 
students have become testers. They have tested, and gone out 
and participated with other nonprofits and done tests, and they 
realize the importance.
    Right now, testing is the only credible evidence that we 
can have in a court case that might happen in the future, the 
only competent--as Judge Damon Keith stated many years ago--
evidence that we have at the present time.
    I would definitely support what Mr. Berenbaum stated 
because as we started out as a fair housing clinic, what we 
have become now is a clinic that has other areas, and that area 
is the mortgage crisis. And people would not believe the volume 
of problems that we have.
    Almost all of the calls we receive on a daily basis--and 
there are tons of calls--involve mortgage problems, individuals 
who were given terrible loans. And these are individuals who 
have been gainfully employed for years, have good credit, and 
were somehow given a loan that is unbelievable.
    We get these on a daily basis. Almost all of these 
consumers are African American. If they are not African 
American, they are Latino. And this is just in one area of the 
country, the Washington metropolitan region. As Mr. Berenbaum 
stated, I think this is a serious crisis. I would hope that 
this bill would also be able to try to address that issue 
because this is a serious crisis.
    The homeownership rate for African Americans and Latinos 
was on the rise until a few years ago, and now it is 
plummeting. And they are losing valuable wealth, and everybody 
knows that wealth is opportunity and it dictates the future.
    I think that is the most important issue that we have seen 
at Howard University School of Law since we have been doing the 
clinic in the last 2 or 3 years. That issue has to be 
addressed.
    The reason why we definitely support this bill as well is 
because there are a few things out there that we--one thing out 
there we see that is a lot different. We conducted a survey of 
consumers, and the consumers, almost all of them, stated that 
they had been discriminated against, or they applied for an 
apartment and they didn't receive it.
    We just think that the landscape has changed and something 
has to be done in this area, the fair housing area. And we 
believe one thing that has not been mentioned by anyone here 
that I think this committee has to consider in the future is 
that the entire landscape, the way people get housing, has 
changed.
    You don't get an apartment now by reading a newspaper. You 
go online. You talk to somebody by e-mail. You don't even 
hardly meet this person. There are cases now where--I mean, the 
discrimination is electronic. You don't even hear about it 
because of the way it is done.
    And the way the law is arranged now, it is able to be done, 
through craigslist, the famous craigslist case. It is just the 
landscape has changed, and I think that this committee and, you 
know, the Congress overall, should take into account the way 
things are drastically changing.
    Congressman Garrett said, let's not make the mistakes of 
the past. I remember he said that in his comments. Let's not 
make the mistakes of the past. The 20th Century was about 
housing discrimination. We know that. I think it is time to 
make a new start, and that is what we try to do every day at 
the Howard University School of Law.
    And I thank you for the opportunity to testify.
    [The prepared statement of Professor Gilmore can be found 
on page 70 of the appendix.]
    Chairwoman Waters. Thank you very much. We will now proceed 
with our questions.
    Ms. Proll and Mr. Berenbaum both kind of alluded to or 
mentioned in their testimony something about the way the 
lending institutions dealt with lending as it relates to the 
foreclosure problem that we have.
    Now, recently there was a case brought against Wells Fargo. 
And I think it had to do with targeting certain communities for 
predatory lending and unfair products. Were either of you 
involved in that case?
    Ms. Proll. We were not, but we know the lawyers who were.
    Chairwoman Waters. And am I correct in assuming that it had 
to do with targeting communities for basically unfair lending 
practices?
    Ms. Proll. That is right. It is what we call reverse 
redlining. Rather than circling a red line around a community 
and not lending to that community, the line was circled around 
the community and the community was targeted for exorbitant 
rates, for everything that goes into and caused the foreclosure 
crisis.
    And the theory of the case is that the economic 
disadvantage that resulted to the Baltimore community was a 
direct result of Wells Fargo's lending practices.
    Chairwoman Waters. Will the Federal Fair Housing 
Initiatives Program be able to look at those kinds of 
discrimination practices along with testing, as it is presented 
here by Mr. Green?
    Mr. Berenbaum. There is no question that well-designed fair 
lending tests can probe any number of issues from, for example, 
the appropriateness of loans suggested to qualified consumers, 
to steering and other aspects of the current underwriting 
crisis.
    In fact, included in our testimony are summaries from three 
series of tests in the fair lending space that the National 
Community Reinvestment Coalition has been involved with. For 
example, when brokers were being sort of labeled as the cause 
of the financial crisis, with Fair Housing Initiatives Program 
support, we went out and tested brokers across the country and 
found that over 40 percent of the time, discrimination was a 
factor.
    When financial service corporations were in question, we 
did the same with a HUD FHIP grant, and reported out both to 
educate the industry and Congress and HUD and others to the 
issue, but also to bring, as appropriate, enforcement actions. 
That led to over 15 filings of redlining complaints against 
financial service corporations who were not regulated 
institutions by Federal agencies.
    Chairwoman Waters. Thank you very much.
    I would like to ask Mr. Gilmore from Howard University 
whether or not in the educating of the communities that your 
students go into about fair housing laws, whether or not they 
are picking up complaints and being able to file those 
complaints or get them to the Federal Fair Housing Initiatives 
Program?
    I take it that the school does not have a program. But in 
your educating of students in this area, they could be picking 
up complaints. What do they do with those complaints?
    Mr. Gilmore. Actually, the Howard University School of Law 
program was founded through a HUD grant, through the FHIP 
program. It was a special grant many years ago for establishing 
a law school clinic, fair housing clinic, at an HBCU. It was a 
very unique program.
    So we actually do--we are out in the community, and 
individuals come to us. We don't file the complaint, but we 
show the consumer how to file a complaint through the HUD 
system or, because we are in the District of Columbia, it is 
through the D.C. Office of Human Rights, which is like the HUD 
affiliate in Washington, D.C.
    And we will show them that process. And it is an online 
process, or they can call--for HUD, they will call the 
Philadelphia office. We would show them how to do that, and 
then they would take it from there, whether they wanted to file 
it or if they decided they didn't.
    And I will point out that one of the problems over the 
years has been, when we have heard from the public, is they 
have lost faith in the ability for the program to work for 
them. And a lot of people just--they get denied something, for 
whatever reason, and they just simply forget it. They just 
forget about it. They sort of walk away from it.
    And I think that is also what this is about, is restoring 
that faith in the Federal Government to take action in 
situations like this.
    Chairwoman Waters. Thank you very much.
    Ms. Capito?
    Mrs. Capito. Yes. Thank you.
    Ms. Delgado, we have heard a lot in the previous panel and 
the panel here, about the need for more education, I think on 
both sides of the fair housing issue, both in terms of the 
potential buyer or renter and also of the owner of the 
properties maybe not being aware of some of the issues that 
have to be dealt with in terms of equal access for, say, 
disabilities and things of that nature.
    Your organization obviously represents a vast number of 
owners and renters of properties. What kind of educational 
outreach do you do in terms of educating your members?
    Ms. Delgado. We do quite a bit. At every one of our 
conferences, we have held--in fact in the past several years--
courses or forums specifically dedicated to educating on the 
requirements, the design and construction requirements, of the 
Fair Housing Act.
    Our other group, the National Apartment Association, 
through their local and State associations, they offer regular 
training programs and educational programs. Some of our larger 
members have their own training in-house to mandate that their 
employees and staff and builders go through all of those 
training courses.
    One of the pieces of information in the 2008 HUD report 
quantified the number of people who have gone through HUD's 
Accessibility FIRST training. And that is an area that we 
commend HUD for doing something like that because I think it is 
a recognition that the industry is in need of this very 
technical, detailed information about how to build correctly.
    We have a few observations and disagreements over how--the 
standards to which they are enforcing against. But overall, the 
educational component is very good, and we would be curious to 
see how the hotline, the HUD hotline, is used, what kind of 
information, what kind of questions they are getting, if that 
is informing their additional educational opportunities.
    So with the combination of those things, I think we try to 
do as much as we can in recognizing the need for that 
education.
    Mrs. Capito. Thank you.
    Ms. Smith, in terms of the answer that was just given from 
the one side of the housing equation, is there ever any 
collaborative efforts between the owners and the renters, 
between the potential owners--I mean, on the local level.
    You talked about you have 98, I think you said, local 
private fair housing organizations. Are there any kind of 
coalitions together to make sure that these issues are aired on 
both sides? Or do you find that there is a lack of--I mean--
yes. Let me leave that question out there.
    Ms. Smith. When a complaint is filed, 99 percent of the 
complaints go to an administrative agency. There are very, very 
few lawsuits that are filed annually. I guess less than 10 
lawsuits, fair housing lawsuits, are filed annually.
    In the example that was given, it shouldn't have been a 
long investigation. The State, local, or HUD investigator 
should have been able to look at the test reports right away to 
see that different information was requested and dismiss a case 
like that.
    Testing, the courts and HUD and administrative agencies can 
look at that. And it takes away the issue of she said/I said.
    Mrs. Capito. Right.
    Ms. Smith. And it pulls in some objective information about 
availability. Private fair housing groups, in 9 out of 10 of 
the cases, develop a relationship with the apartment builder, 
the complex, the real estate company that has been 
investigated, to do training.
    The difficulty in the rental markets is you have high 
turnover of managers and supervisors and assistant managers. So 
you may not be in a situation where they know exactly what the 
law says when they are operating every day.
    But you also have situations where some owners have 
directed managers to discriminate. And we have cases in Alabama 
where those managers came forward, and the Fair Housing Act 
protected them, by being able to file a complaint without 
retaliation.
    I see much more cooperation between the private movement 
and the industry in training. They have the desire to follow 
the law. We have the desire to have them follow the law. And I 
think the California Apartment Association, in particular, has 
great training programs that they do on a local level.
    Mrs. Capito. Could I have one final question?
    Chairwoman Waters. Yes.
    Mrs. Capito. Thanks. This is on a topic near and dear to 
your heart I wanted to ask about.
    Mr. Berenbaum, I believe that your organization has had 
some exposure to this mortgage fraud that is going on now, with 
people being contacted and being told, ``We are going to help 
you prevent your foreclosure.''
    Can you speak to that just generally, what your exposure 
has been? Is it on the rise? Are you able to detect what the 
issues are? Are there people getting caught being fraudulent? 
And that type of thing.
    Mr. Berenbaum. The National Community Reinvestment 
Coalition is a HUD-certified housing counseling intermediary, 
and over 150 of our member organizations are providing 
foreclosure prevention counseling across the country.
    In discussion with them and, frankly, from our own work in 
the space, we were seeing more and more for-profit foreclosure 
prevention firms opening their doors. Many were former mortgage 
professionals. Some were even not-for-profit staff opening 
doors. Some were lawyers. They really varied. Some were 
national advertisers. Some were local advertisers, radio or on 
the utility pole outside a door. Going door-to-door in Las 
Vegas, and so on.
    We decided, using our own resources, to begin a matched 
pair testing program where we looked at over 100 foreclosure 
prevention counseling for-profit providers. We are preparing to 
release that report at this time.
    But I can tell you what we saw was widespread 
misinformation, including statements such as, ``Don't pay your 
mortgage payment. Work with us. Pay our fee''--on average what 
was a $2,800 fee--``instead of paying your mortgage,'' when in 
fact all of those consumers, regardless of where they lived, 
could receive HUD counseling at no cost. And frankly, they 
would have received better advice, from what we were learning.
    We will share the report with you when we release it in 
early February.
    Chairwoman Waters. Thank you very much.
    We have been joined by Mr. Kanjorski. And without 
objection, Representative Kanjorski will be considered a member 
of the subcommittee for the duration of this hearing. Mr. 
Kanjorski?
    Mr. Kanjorski. Thank you very much, Madam Chairwoman.
    Maybe listening to the panel's testimony, am I making an 
incorrect judgment that we are actually progressing and doing a 
better job than we did, say, prior to the Fair Housing Act?
    Ms. Smith. I would say that--I have been doing this for 35 
years. And you are supposed to say, but you look so young.
    [laughter]
    Ms. Smith. And I see major progress in enforcement and 
education. However, we estimate that 4 million instances of 
discrimination occur annually, and fewer than 30,000 are 
reported.
    And when you look at where the private fair housing centers 
are located--in Ohio, Michigan, California, are where they are 
mostly concentrated--you see most of the cases coming from 
those areas. Then we have States that may have one fair housing 
center--for example, Richmond in Virginia--and other States 
that have no private fair housing centers--North and South 
Carolina, Idaho, Kansas, New Mexico.
    It is a huge gap, as Assistant Secretary John Trasvina 
testified. There is a huge gap in enforcement. So where there 
is effective, full service, nonprofit fair housing centers, you 
see integration. You see cooperation between the enforcement 
agencies and the industry. But where there isn't, you see this 
battle going on and people being denied housing every single 
day without any assistance.
    Lending discrimination is rampant, and it is not just the 
scam issues, which we are testing as well. But 2 years ago, 
when the credit crunch became tight, we did testing of banks. 
And we sent in Latinos, African Americans, and White testers to 
apply for a conventional mortgage loan. Everybody was offered 
some kind of a loan, but the Whites got the best loan--terms, 
conditions, interest rates--even though they were less 
qualified than the Latino and African-American testers.
    So in some parts, we are really improving in education and 
dialogue with the industry. But we have just touched the tip of 
the iceberg when we are talking about how this discrimination 
perpetuates segregation in our country.
    Mr. Kanjorski. Ms. Delgado, you brought out in your 
testimony some of the failures in the testing system. If you 
had your way, what would be the changes you would make now to 
have the Fair Housing Act better applied and to be more 
efficient and effective in its application? What would be your 
judgment?
    Ms. Delgado. Thank you for the question. Some of the 
suggestions we would make would be we think there should be a 
standard testing protocol. That is, to recognize that, as I 
said in my testimony, tests are done in various ways, and we 
are not sure that tests appear to recognize the reality of 
technological advances, for example, that have been made in the 
rental marketing practices.
    In an example, for a simple test of someone going in and 
seeking pricing on a one-bedroom unit--I just did this recently 
myself. I am in the market for a new place to live, and went 
shopping at one of my members' communities, and asked for some 
pricing.
    Well, it depended. You had to tell them--they had four or 
five options. Different square feet. Where the unit was 
located. When did you want to move in? Everyone doesn't move in 
on the first of the month these days, and that makes a 
difference in the pricing.
    So with a simple request of, I want to know how much it 
costs for a one-bedroom unit, it could be different for 
everybody who asks, and it could be different the very next 
day. So those kinds of things, I am not sure that those are 
recognized in various testing protocols.
    We think it would be helpful for the test results to be 
disclosed. When someone received a complaint, they should have 
more than just an anonymous alleged complaint which they have a 
hard time responding to.
    Another recommendation we would make: We think there should 
be some flexibility built into the system when, say, for 
example--especially in the more confusing areas of the laws. 
Someone might ask for an exception to a no-pets policy. Well, 
that is under reasonable accommodations provision of the Fair 
Housing Act.
    Not everyone is familiar with that. In fact, I think that 
was also reported in the HUD study, that people are unfamiliar 
with what those rights are. Why can't the tester prod the 
person, ask a few additional questions, remind them that these 
are their fair housing rights?
    I think if you just engage in a little education on both 
parts without what appears to us as mostly a ``gotcha'' game--
because those are the easy things to check off--we think it 
would go a longer way to actually effecting the change that you 
are looking for.
    Mr. Kanjorski. Thank you very much.
    Chairwoman Waters. Thank you.
    Mr. Green?
    Mr. Green. Thank you.
    Ms. Delgado, I must move quickly, so please forgive me if I 
appear to be rude, crude, and unrefined. I am going to ask you 
a question. And so as not to entrap you, I am going to tell you 
before I ask you this question that I will ask you a follow-up 
question to ascertain whether or not the answer that you have 
given me is totally correct.
    The question is: Have you examined the protocols for 
testing promulgated by HUD? Have you examined them?
    Ms. Delgado. I have looked at them, but not in the detail 
that you would probably follow up in your question.
    Mr. Green. All right. If you have not fully examined them, 
why would you make contentions about protocols that you don't 
fully understand and you haven't fully examined? You see, you 
are doing what we call in court asking a question that hasn't 
been answered.
    The testing that is being done is not the type of informal 
questioning that you are talking about. These tests are 
performed with specific protocols that address the very 
concerns that you have called to our attention.
    So when you make these statements, you are misleading 
people. This concerns lives. This is about children. This is 
about veterans. This is about the American society that we live 
in and we want to make better. So I beg that you give more 
consideration to those protocols before you make comments such 
as what you have made.
    I would also commend to everyone, given that this is Dr. 
King's birthday celebration time in this week, read his letter 
from the Birmingham jail. Read his letter from the Birmingham 
jail and understand that Dr. King didn't go to jail to write a 
letter. That is not why he went to jail.
    He wrote the letter in response to prominent citizens who 
wrote him a letter. He wrote his letter responding to people 
who were saying, ``You are moving too fast.'' He wrote his 
letter in response to people who were saying, ``The time is not 
right to make this kind of change.''
    Read that letter from the Birmingham jail, and you will get 
a greater appreciation for why those who suffer want something 
to change right now. Those who are denied public housing need 
help right now, as well as those who are losing their place in 
the private housing market, too, simply because of who they 
are.
    Quickly, the professor from Howard. You are eminently 
correct. There is discrimination taking place online. In 
Houston, Texas, we had a candidate run for office, and she 
lost. For our purposes, we will say her name is ``Shaneney.'' 
She lost. ``Shaneney'' lost. And she came forward and said, 
``Look at me. I am Anglo. I should not have lost. Other Anglo 
candidates won who had different names.''
    Her contention--anecdotally, but I conclude that there is 
empirical evidence to support it--was that her name caused her 
to lose. When you apply online, if your name is ``Shaneney,'' 
it may have an impact on whether you will get a place to stay.
    NAACP Legal Defense Fund, not only did you file and win 
Shelley v. Kraemer, but also Barrows v. Jackson. And if my 
information is correct, approximately 29 of 31 cases before the 
Supreme Court of the United States were won by the NAACP. You 
have paid dues, and you have made a difference in the lives of 
people in this country. People ought to take your testimony 
seriously because you are talking from years of experience in 
dealing with these issues.
    With the Alliance, I want to thank you for the last comment 
that you made about how we must do more in the area of testing 
with reference to lending. You used a term, I believe, ``full 
application testing.'' Absolutely, full application testing.
    And for our edification, let's take a quick survey. Let's 
test the panel here. How many of you would agree that we need 
to test to find out if there is discrimination in lending? If 
you agree, will you kindly extend a hand into the air?
    [show of hands]
    Mr. Green. Let the record reflect that all of the members 
of the panel are of the opinion that we should should test 
lending by way of the application process.
    And I would add that in doing this, we can also get into 
that predatory lending that has been called to our attention. 
We can get the empirical evidence of what is going on. If we 
really want to deal with this problem, testing is the way to do 
it. Dr. King did not want to manage racism and segregation. He 
didn't want to manage it. He wanted to eliminate it.
    Now, the question that we in Congress have to ask ourselves 
is this: Do we want to eliminate invidious discrimination 
against veterans, against people with children, against ethnic 
minorities? Or do we just want to manage it? That is the 
question that we have to deal with.
    Thank you, and I yield back the balance of my time.
    Chairwoman Waters. Thank you very much, Mr. Green.
    We have just been joined by Mr. Cleaver. Do you have any 
questions for this panel, Mr. Cleaver?
    Mr. Cleaver. I would just like to associate my comments 
with Reverend Green.
    Chairwoman Waters. Okay. Thank you.
    There are no more questions for this panel. Without 
objection, your written statements will be made a part of the 
record. The hearing record will remain open for 30 days for 
members to submit written questions to these witnesses and to 
place their responses in the record.
    This panel is dismissed, and we thank you so very much for 
being a part of this hearing today.
    Before we adjourn, the written statements of the following 
organizations will be made part of the record of this hearing: 
The National Fair Housing Alliance, and the National 
Association of Realtors. Without objection, it is so ordered.
    This hearing is adjourned. Thank you very much.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]



                            A P P E N D I X



                            January 10, 2010


[GRAPHIC] [TIFF OMITTED] T6239.001

[GRAPHIC] [TIFF OMITTED] T6239.002

[GRAPHIC] [TIFF OMITTED] T6239.003

[GRAPHIC] [TIFF OMITTED] T6239.004

[GRAPHIC] [TIFF OMITTED] T6239.005

[GRAPHIC] [TIFF OMITTED] T6239.006

[GRAPHIC] [TIFF OMITTED] T6239.007

[GRAPHIC] [TIFF OMITTED] T6239.008

[GRAPHIC] [TIFF OMITTED] T6239.009

[GRAPHIC] [TIFF OMITTED] T6239.010

[GRAPHIC] [TIFF OMITTED] T6239.011

[GRAPHIC] [TIFF OMITTED] T6239.012

[GRAPHIC] [TIFF OMITTED] T6239.013

[GRAPHIC] [TIFF OMITTED] T6239.014

[GRAPHIC] [TIFF OMITTED] T6239.015

[GRAPHIC] [TIFF OMITTED] T6239.016

[GRAPHIC] [TIFF OMITTED] T6239.017

[GRAPHIC] [TIFF OMITTED] T6239.018

[GRAPHIC] [TIFF OMITTED] T6239.019

[GRAPHIC] [TIFF OMITTED] T6239.020

[GRAPHIC] [TIFF OMITTED] T6239.021

[GRAPHIC] [TIFF OMITTED] T6239.022

[GRAPHIC] [TIFF OMITTED] T6239.023

[GRAPHIC] [TIFF OMITTED] T6239.024

[GRAPHIC] [TIFF OMITTED] T6239.025

[GRAPHIC] [TIFF OMITTED] T6239.026

[GRAPHIC] [TIFF OMITTED] T6239.027

[GRAPHIC] [TIFF OMITTED] T6239.028

[GRAPHIC] [TIFF OMITTED] T6239.029

[GRAPHIC] [TIFF OMITTED] T6239.030

[GRAPHIC] [TIFF OMITTED] T6239.031

[GRAPHIC] [TIFF OMITTED] T6239.032

[GRAPHIC] [TIFF OMITTED] T6239.033

[GRAPHIC] [TIFF OMITTED] T6239.034

[GRAPHIC] [TIFF OMITTED] T6239.035

[GRAPHIC] [TIFF OMITTED] T6239.036

[GRAPHIC] [TIFF OMITTED] T6239.037

[GRAPHIC] [TIFF OMITTED] T6239.038

[GRAPHIC] [TIFF OMITTED] T6239.039

[GRAPHIC] [TIFF OMITTED] T6239.040

[GRAPHIC] [TIFF OMITTED] T6239.041

[GRAPHIC] [TIFF OMITTED] T6239.042

[GRAPHIC] [TIFF OMITTED] T6239.043

[GRAPHIC] [TIFF OMITTED] T6239.044

[GRAPHIC] [TIFF OMITTED] T6239.045

[GRAPHIC] [TIFF OMITTED] T6239.046

[GRAPHIC] [TIFF OMITTED] T6239.047

[GRAPHIC] [TIFF OMITTED] T6239.048

[GRAPHIC] [TIFF OMITTED] T6239.049

[GRAPHIC] [TIFF OMITTED] T6239.050

[GRAPHIC] [TIFF OMITTED] T6239.051

[GRAPHIC] [TIFF OMITTED] T6239.052

[GRAPHIC] [TIFF OMITTED] T6239.053

[GRAPHIC] [TIFF OMITTED] T6239.054

[GRAPHIC] [TIFF OMITTED] T6239.055

[GRAPHIC] [TIFF OMITTED] T6239.056

[GRAPHIC] [TIFF OMITTED] T6239.057

[GRAPHIC] [TIFF OMITTED] T6239.058

[GRAPHIC] [TIFF OMITTED] T6239.059

[GRAPHIC] [TIFF OMITTED] T6239.060

[GRAPHIC] [TIFF OMITTED] T6239.061

[GRAPHIC] [TIFF OMITTED] T6239.062

[GRAPHIC] [TIFF OMITTED] T6239.063

[GRAPHIC] [TIFF OMITTED] T6239.064

[GRAPHIC] [TIFF OMITTED] T6239.065

[GRAPHIC] [TIFF OMITTED] T6239.066

[GRAPHIC] [TIFF OMITTED] T6239.067

[GRAPHIC] [TIFF OMITTED] T6239.068

[GRAPHIC] [TIFF OMITTED] T6239.069

[GRAPHIC] [TIFF OMITTED] T6239.070

[GRAPHIC] [TIFF OMITTED] T6239.071

[GRAPHIC] [TIFF OMITTED] T6239.072

[GRAPHIC] [TIFF OMITTED] T6239.073

[GRAPHIC] [TIFF OMITTED] T6239.074

[GRAPHIC] [TIFF OMITTED] T6239.075

[GRAPHIC] [TIFF OMITTED] T6239.076

[GRAPHIC] [TIFF OMITTED] T6239.077

[GRAPHIC] [TIFF OMITTED] T6239.078

[GRAPHIC] [TIFF OMITTED] T6239.079

[GRAPHIC] [TIFF OMITTED] T6239.080

[GRAPHIC] [TIFF OMITTED] T6239.081

[GRAPHIC] [TIFF OMITTED] T6239.082

[GRAPHIC] [TIFF OMITTED] T6239.083

[GRAPHIC] [TIFF OMITTED] T6239.084

[GRAPHIC] [TIFF OMITTED] T6239.085

[GRAPHIC] [TIFF OMITTED] T6239.086

[GRAPHIC] [TIFF OMITTED] T6239.087

[GRAPHIC] [TIFF OMITTED] T6239.088

[GRAPHIC] [TIFF OMITTED] T6239.089


</pre></body></html>
